No.
IN THE SUPREME COURT OF THE UNITED STATES

THOMAS CHRISTOPHER RETZLAFF
Petitioner,

JASON LEE VAN DYKE

CERTIFICATE OF COMPLIANCE
WITH WORD LIMITATIONS

I, Daniel R. Ortiz, a member of the Bar of this Court and counsel for Petitioner,
certify that this petition for certiorari complies with the word limitations of Rules
33(d) & (g) of this Court. In particular, according to the word count feature of
Microsoft Word, the word processing program used to prepare the document, the
sections of the brief not excluded under Rule 33(d) contain 8,957 words, including

footnotes.
ee
Daniel R. a

Dated: May 3, 2020
